Supreme Court, U.S.
FILED

No.

30 - HT1

IN THE SUPREME COURT OF THE UNITED STATES

Randy Raymond Bell
Petitioner,
v.

New York State Department of Corrections
and Community Supervision et. al
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Second Circuit
•t

PETITION FOR WRIT OF CERTIORARI

Randy Bell
5668 Eloise Crescent,
PO Box 584, Osgoode
Ontario, Canada
K0A-2W0
1-613-469-0131

received
APR 2 0 2021

APR 1 5 2021
OF THE CLERK

QUESTIONS PRESENTED FOR REVIEW

1.

Did Northern New York District Court Judge David Hurd lack

jurisdiction to issue a decision, dismissing petitioner’s complaint, as a result of
fraud upon the Court committed by him in his decision?

2.

Did the Second Circuit Court abuse its discretion, when it dismissed

petitioner’s appeal disregarding extended time limitations for him to file a notice of
appeal in the District Court, as a result of fraud upon the Court, committed by
Northern New York District Court Judge David Hurd, when it ordered that the
petitioner’s District Court notice of appeal was untimely filed and that the Court of
Appeals, as a result, lacked jurisdiction to hear the appeal?

PARTIES INVOLVED IN THE PROCEEDINGS
Parties Involved in The Second Circuit Court Action:
Appellant: Randy Bell
Respondents: New York State Department of Corrections and Community
Supervision, New York State Corrections Officers and Police Benevolent Association
Inc., Anthony Annucci, Greg Fredricks, Mike Powers, Terry Pike, Kevin Aldous,
Michael Caldwell, Calvin O Rabsatt, Brian McAuliffe, Mike Sovie, Michele
O’Gorman, Scott Clary, Steve Garabrandt, Tony Harper, Carl Hewko, Tom Patnode,
Patrick Gray, Jim Bleu and James Bell (no relation to petitioner).

Parties Involved in Supreme Court Third Department Action:
Appellant: Randy Bell
Respondents: Greg Fredericks, New York State Corrections Officers and Police
Benevolent Association Inc., Jim Bleau, Terry Pike, Kevin Aldous, Michael
Caldwell, Brian McAuliffe, Mike Sovie, Michele O’Gorman, James Bell, Scott Clary,
Steve Garabrandt, Tony Harper, John Shipley, Kelly Ahearn.

CORPORATE DISCLOSURE STATEMENT
Respondent, New York State Corrections Officers and Police Benevolent Association
Inc. is a governmental corporation, has no parent corporation, has no publicly
owned stock, and has no publicly held company owning 10 percent or more of its
stock. Because there are no nongovernmental corporate parties to this case, the
disclosure requirement of Rule 29.6 does not apply.

LIST OF ALL FEDERAL AND STATE ACTION
RELATED TO THIS PETITION

Federal Actions:
A.

United States District Court for the Northern District of New York,

Case # l:17-cv- 0937, Caption - Randy Bell v. New York State Department of
Corrections and Community Supervision et. al, date of entry of judgement, March
22nd- 2019.

B.

United States Court of Appeals for the Second Circuit, case # 20-3525,

Caption - Randy Bell v. New York State Department of Corrections and Community
Supervision et. al, date of entry of judgement, January 27th’ 2021, dismissing
petitioner’s appeal (appealed from A above), and which simultaneously mooted
petitioners petition for writ of mandamus, served on the Second Circuit on January
22nd> 2021, entered January 26th’ 2021, document timely corrected on February 4th>
2021, arising from the denied second motion for temporary stay, indicated in D
below.

IV

State Actions:
C.

New York State Supreme Court for the County of St. Lawrence, Case #

cv-19-155303, Caption - Randy Bell v. Greg Fredricks et. al, date of entry of
judgement May 11th’ 2020 (arose from A above).

D.

New York State Supreme Court Appellate Division, Third Department,

Case # 532-142, Caption - Randy Bell v. Greg Fredricks et. al, date of entry of
interlocular order. January 8th’ 2021, denying second motion for temporary stay,
pending the outcome of Second Circuit Appeal. (Third Department appeal was
appealed from C above).

v

TABLE OF CONTENTS AND TABLE OF CITED AUTHORITIES
pages

Table of Contents
QUESTIONS PRESENTED FOR REVIEW
PARTIES INVOLVED IN THE PROCEEDINGS

1

n

CORPORATE DISCLOSURE STATEMENT

in

LIST OF ALL FEDERAL AND STATE ACTIONS
RELATED TO THIS PETITION.............................

IV

TABLE OF CONTENTS

vi

TABLE OF AUTHORITIES

Vlll

PETITION FOR WRIT OF CERTIORARI

1

CITATION OF OPINIONS AND ORDERS ENTERED

1

BASIS FOR JURISDICTION IN THIS COURT

1

CONSTITUTIONAL PROVISIONS AND
LEGAL PRINCIPLES INVOLVED..........

2

STATEMENT OF THE CASE SETTING OUT THE FACTS

3

vi

REASONS FOR GRANTING THE WRIT

9

I. Judge Hurds Decision is Null and Void and Does Not Exist
as He Lacks authority and Jurisdiction.................................... 9

II. The Subsequent New York State Supreme Court
Decision Issued by Judge Mary Farley Is Also Null
and Voided as It Arose from A Null and Void District
Court Decision/Action........................................................

10

III. The Second Circuit Court of Appeals Decision
Conflicts with Previous U.S. Supreme Court Rulings

10

IV. The Second Circuit Court of Appeals Decision
Conflicts with Other Circuit Court Decisions...

11

V. The Second Circuit Court Decision Conflicts with
State and Federal Standards of Time Limits.........

12

VI. There is Substantial State and National
Public Interest...............................................

12

VII. There is Substantial Class Action Considerations

13

VIII. Setting Precedence for Government Workers

13

IX. Effects of Fraud Upon the Court in Relation to State,
Federal and Constitutional Law.......................................

14

X. Petitioner Was Denied his Lawful Rights with
No Remedies Given to Him....................................

14

XI. Power of the Court

14

XII. Exhausted Efforts

15

CONCLUSION

15

vii

APPENDIX A: Court of Appeals order dismissing appeal

la

APPENDIX B: Court of Appeals order making moot
petition for writ of mandamus..........

2a

APPENDIX C: New York Supreme Court Appellate Division,
Third Department notice of appeal...................

3a

APPENDIX D: District Court notice of appeal

4a

APPENDIX E: New York Supreme Court Appellate Division,
Third Department, first order denying
motion for stay.......................................................

5a

APPENDIX F: New York Supreme Court Appellate Division,
Third Department, second order denying
motion for stay......................................................

6a

APPENDIX G: District Court order dismissing plaintiffs/petitioner’s
amended District Court complaint
7a

APPENDIX H: Text of constitutional provisions
and legal principles involved............

38a

Table of Authorities
Cases

pages

AUcock v. Allcock
437 N.E. 2d 392 (Ill. App. 3 Dist. 1982)

10

BaltiaAir Lines, Inc., v. Transaction Mgmt., Inc.,
98 F.3d 640,642 (D.C. Cir. 1996).............................

12

Basso v. Utah Power & Light Co.,
495 F 2d 906, 910 (10th Cir. 1994)

10
viii

Bowles v. Russell, 551 U.S. 205, 214 (2007)

1,8

Bulloch v. United States,
763 F.2d 1115, 1121 (10th Cir. 1985).

14

Elliot u. Piersol, 1 Pet. 328, 340, 26 U.S. 328, 340 (1828)

9

Hazel-Atlas Glass Co. v. Hartford-Empire Co.,
322 U.S. 238, 250 (1944).......................................

10

Hazel-Atlas Glass Co. v. Hartford-Empire Co.,
322 U.S. 244 (1944)................................................

11

Holmberg v. Armbrecht,
327 U.S. 392, 397, 66 S.Ct. 582, 585, 90 L.Ed. 743 (1946)

11

Kenner v. Commissioner of Internal Revenue,
387 F.2d 689, 691 (7th Cir. 1968).....................

9

Sanabria v. United States, 437 U.S. 54, 67 n.21 (1978)

7

Universal Oil Products Co. v. Root Ref. Co.,
328 U.S. 575, 580 (1946).................................

14

US v. Beggerly, 524 U.S. at 47 (1998)

14

US v Throckmorton [98 U.S. 61(1878)

10

US v. StonehiU 660 F.3d at 415, 443 (9th Cir. 2011)

11

Statutes

pages

28 USC 2107

1,4,8,11,12

28 USC 1254

1

28 USC 1257

1

U.S. Const, art. Ill, sec. II

1

US Const, amend I

4

IX

28 USC 1367(d)

6

28 U.S.C. 1331.

9

28 U.S.C. 1343..

9

NY CPLR 213(8)...............

12

18 USC 3282(a).................

12

NY Civ. Serv. Law 134(3)

12

U.S. Const, amend. V

14

U.S. Const, amend. XIV sec. I

14

42 USC 1983

14

Rules

Federal Rules of Civil Procedure, Rule 60(d)(3)

1,4,5,7,11,12,14

Federal Rules of Civil Procedure, Rule 61.........

7

Federal Rules of Civil Procedure, Rule 23(a)....

13

x

PETITION FOR WRIT OF CERTIORARI
Petitioner, Randy R. Bell, respectfully requests the issuance of a writ of
certiorari, to review the judgment of the United States Court of Appeals for the
Second Circuit.
CITATION OF OPINIONS AND ORDERS ENTERED
Second Circuit Court Clerk stated there was no opinions issued, only the
dismissal order for lack of jurisdiction, as a result of untimely notice of appeal,
citing 28 USC 2107 and Bowles v. Russell, 551 U.S. 205, 214 (2007) and making
moot petitioners motion for appointed counsel.

BASIS FOR JURISDICTION
The Second Circuit Court of Appeals issued its decision on January 27th>
2021. The interlocutory order denying a stay by the Supreme Court Appellate
Division, Third Department, was entered on January 8th- 2021. This Court’s
jurisdiction is invoked under 28 USC 1254; 28 USC 1257; U.S. Const, art. Ill, sec. II
and F.R.C.P. Rule 60(d)(3) and as important questions of state, federal and
constitutional law are involved.

1

CONSTITUTIONAL PROVISIONS AND
LEGAL PRINCIPLES INVOLVED
(The pertinent text is contained within Appendix H)
28 U.S.C. 2107
28 U.S.C. 1254
28 U.S.C. 1257
U.S. Const, art. Ill, sec. II
U.S. Const, amend I
28 U.S.C 1367(d)
28 U.S.C. 1331
28 U.S.C. 1343
N.Y. CPLR 213(8)
18 U.S.C 3282(a)
N.Y. Civ. Serv. Law 134(3)
U.S. Const, amend. V
U.S. Const, amend. XIV sec. I
42 USC 1983
Federal Rules of Civil Procedure, Rule 60(d)(3)
Federal Rules of Civil Procedure, Rule 61
Federal Rules of Civil Procedure, Rule 23(a)

2

STATEMENT OF THE CASE SETTING OUT THE FACTS
Introduction
This case arises simply because petitioner and 73 other New York State Corrections
Officers wanted to work overtime in a fair, legal overtime hiring system, at
Riverview Correctional Facility, so as to increase our income, while working, but
more importantly, to increase our retirement income, which is based on that
overtime while working, both to benefit ourselves and our families.
This case also began from the theft of large amounts of state and federal taxpayer
funded overtime money and retirement income from Officers, perpetrated by other
Officers, Sergeants and state employees, via money bribes, favors etc., at Riverview
Correctional Facility, located on the Canadian border. After observing numerous
conflicts of overtime corruption and wishing to work in a legal overtime hiring
system, in 2013, petitioner presented an overtime hiring proposal to the 250 facility
Corrections Officers, which was put up for a formal secret ballot vote, which was
passed by the majority of 140 officers, who voted in favor of implementing such
proposal, as a Labor Management Agreement, allowed per contract. Upon numerous
intentional delays by the defendants, from 2013 to 2016, it was approved at the
Executive level, at both the Corrections Department and Officers labor union and
was to be implemented on January 1st’ 2017. But in April of 2016, a group of
Officers, mostly Officers who were stealing or perpetrating stealing overtime hours
away from other Officers, attended a union meeting, where they wrongfully voted
down, via an informal hand vote, the implementation of the agreement that was to
3

be implemented, hence the filing of the District Court action on August 24th’ 2017.
In addition to the theft of overtime and retirement income, petitioner was severely
discriminated and retaliated against, simply as a result of exercising his U.S. Const.
Amend. I rights, when he criticized both the facility administration and the labor
union representatives, for their refusal to stop the corruption and for filing suit,
which ultimately resulted in petitioner’s unjust suspension and two terminations
from his job, after 29 Vi years of loyal service.
Second Circuit Court of Appeals Dismissal of Petitioners
Appeal Which Simultaneously Mooted Petitioners
Petition for Writ of Mandamus in the Same Court
This petition, a common-sense petition, arises from the dismissal of the petitioner’s
appeal in the Second Circuit Court of Appeals, who asserted an untimely notice of
appeal in the District Court, citing time limits pursuant to 28 USC 2107. This
petition also arises as the petitioner asserts that District Court Judge David Hurd
committed fraud upon the Court, pursuant to F.R.C.P Rule 60(d)(3), and as a result
lacked authority and jurisdiction to issue a decision dismissing petitioner’s
complaint, which should void any time limits to file a notice of appeal.
This petition further arises as the Second Circuit Court of Appeals disregarded the
effects of fraud on time limits; disregarded previous U.S. Supreme Court and
Circuit Court’s precedence; disregarded conflicts with state and federal fraud time
limits; disregarded state and national public interest; disregarded class action
considerations and the violation of petitioner’s and other Officers state, federal and
constitutional rights, in which they dismissed this petitioner’s appeal for lack of
4

jurisdiction, asserting that the notice of appeal petitioner filed, pursuant to F.R.C.P.
Rule 60(d)(3) (fraudulent concealment by the defendants and fraudulent
concealment and fraud upon the Court committed by District Court Judge David
Hurd), was untimely.
As a result of such dismissal, the Court of Appeals simultaneously mooted
petitioner’s petition for writ of mandamus to the same Circuit Court, to mandate to
the Supreme Court Appellate Division, Third Department, to temporarily stay that
pending appeal, until a decision could be made in petitioner’s associated Second
Circuit appeal.
Timeline and Procedural Background
This action began when the petitioner, a whistle blower, a victim and a New
York State Corrections Officer, revealed overtime corruption, after numerous
violations of his and 73 to 250 other Officers’ contract, state, federal and
constitutional rights were violated. The petitioner then filed a Northern New York
District Court complaint on August 24th> 2017, which began litigation. Upon
continued violations by the defendants, petitioner filed an Amended District Court
Complaint, under severe duress, while still employed in the prison, on January 16th>
2018, one day before he was unjustly suspended, and later fired twice. On March
22nd’ 2019, 14 months later, District Court Judge David Hurd dismissed all of
petitioner’s federal and constitutional claims, including federal criminal claims, pre­
answer, and declined jurisdiction over the contract and state claims (App. 7aDistrict Court order), at which time the petitioner was tricked into thinking Judge
5

Hurd’s reasons for dismissal were true, when actually, they were not. After
petitioner initially, upon a search, found no grounds to argue against Judge Hurd’s
dismissal, he then, pursuant to 28 USC 1367(d), timely filed a complaint, on April
17th’ 2019, in New York State Supreme Court, St Lawrence County, in Canton New
York. Then, 13 months later on May 22nd, 2020, New York State Supreme Court
Judge Mary Farley, again pre-answer, dismissed all 21 of petitioner’s contract,
state, federal and constitutional claims, including federal criminal claims. At which
time, upon the discovery of severe fraud upon the Court, contained in Supreme
Court Judge Farley’s Supreme Court decision, lead this petitioner to the discovery
that District Court Judge David Hurd committed extrinsic and intrinsic fraud upon
the Court contained within his decision, in which he took advantage of this Pro se
petitioner, not knowing the law, and dismissed his complaint. It was discovered
that Judge Hurd omitted any proper applicable standards of statutes, authorities or
justice being served and based his decision instead on inapplicable cited fraudulent
authorities, statutes and asserted highly deceptive statements and of most concern,
among many concerns, he granted eleventh amendment immunity as a defense, to
all defendants who perpetrated theft from me and others, of state and federal
taxpayer funded overtime and retirement monies (App. 17a,18a- District Court
order: Sovereign Immunity). Petitioner then timely filed a notice of appeal,
appealing the lower Supreme Court decision on June 5th> 2020, at which time he
also, as a Pro se under duress, mistakenly appealed at the same time the District
Court complaint, for fraud upon the Court, in that Third Department Appellate

6

Court, (App. 3a- Supreme Court notice of appeal), addressing not only the fraud, but
addressing res-judicata and collateral estoppel effects among others reasons, and
that the lower Supreme Court Judge saturated her decision with the fraudulent
statements made by District Court Judge Hurd, which also severely and negatively
infected the Supreme Court action with fraud as well. Upon opposing counsel
informing petitioner, at a late date, that he could not appeal a District Court
decision in the Third Department Court, the petitioner, having no other options but
to go back to where the wrong began, which was the District Court action, then, as
soon as possible, statutorily timely filed a District Court appeal on October 7th’
2020, approximately four months after the discovery of fraud and within
approximately five days of being notified by opposing counsel of his filing mistake.
Petitioner’s District Court notice of appeal was intentionally filed, pursuant to
F.R.C.P. Rule 60(d)(3), but was mistakenly typed as Rule 60(3)(d), but correctly
described as “fraudulent concealment by the defendants and fraudulent
concealment and fraud upon the Court by District Court Judge David Hurd” (App.
4a- District Court notice of appeal) which, pursuant to the statute and authorities,
has no statute of limitations.
F.R.C.P. Rule 61 (Harmless Error) allows a Court not to vacate a case on grounds of
an error and the intent of the notice of appeal was clearly shown by the petitioner in
the notice of appeal, citing: Sanabria v. United States, 437 U.S. 54, 67 n.21 (1978).
Additionally, there is no Rule 60(3)(d), only Rule 60(d)(3) and petitioner simply
made a mistake and quoted the fraud rule incorrectly.

7

The Second Circuit Court of Appeals then dismissed petitioner’s appeal, for lack of
jurisdiction, one week before the opposing counsels appeal brief was due, for the
reason of an untimely notice of appeal to the District Court, citing 28 USC 2107 and
Bowels v. Russell 551 US 205, 214 (2007) as justification for such dismissal, even
though neither addressed the issue of fraud upon the Court by an Officer of the
Court. (App. la- Court of Appeals order dismissing appeal),
This petitioner, now having two pending appeals, made two motions in the Third
Department, Appellate Division, for a temporary stay, pending the outcome of the
pending Second Circuit Appeal, at which time they denied both motions (App. 5a
-first motion denied and App. 6a second motion denied). Upon their denials of those
motions, petitioner petitioned for a writ of mandamus to the Second Circuit, to
mandate to the Third Department a temporary stay of the petitioner’s appeal in
that Court, pending the outcome of the Second Circuit appeal, and as a result of the
dismissal of the petitioner’s appeal in the Second Circuit, made moot this
petitioner’s petition for the writ of mandamus to that same Circuit Court (App. 2a
-order mooting writ of mandamus). Currently the petitioner, after two extensions
were granted him, with a current filing deadline of March 8th’ 2021, it appears that
the lower Supreme Court decision/action, which arose from the District Court
action, is moot, null and void and also voids any time limits in that action, as a
result of fraud in the District Court action, for reasons stated below in “Reasons for
Granting the Writ #11”.

8

District Court Jurisdiction
The Northern New York District Court, being the place of original instance, had
jurisdiction, pursuant to 28 U.S.C. 1331 and 28 U.S.C. 1343, as there were federal
and constitutional questions.

REASONS FOR GRANTING THE WRIT
Fraud upon the Court, committed by a Judge, attacks the very foundation of the
United States and its Constitution, it attacks the very heart of a lawful, modern,
first world country and any such fraud can not be tolerated.
I. Judge Hurds Decision is Null and Void and Does Not Exist as He Lacks
authority and Jurisdiction.
The notice of appeal and the brief were filed solely to make void the decision of
Northern New York District Court Judge David Hurd’s dismissal order, as he
lacked any authority and jurisdiction to issue such order, as a result of extrinsic and
intrinsic fraud upon the Court, committed by him. If the Court grants this petition,
the petitioner will present, upon a filing of a merits brief, clear undisputable facts,
which will support Judge Hurd’s lack of authority and jurisdiction, voiding his
decision and the time limits which the Court of Appeals now relies upon for its
dismissal of petitioner’s appeal, see Kenner v. Commissioner of Internal Revenue,
387 F.2d 689, 691 (7th Cir. 1968) holding, “a judgement obtain by fraud is not a
judgement at all”; Elliot v. Piersol, 1 Pet. 328, 340, 26 U.S. 328, 340 (1828) holding
“But, if it (a court) acts without authority, its judgments and orders are regarded as
9

nullities. They are not voidable, but simply void; and form no bar to a recovery
sought, even prior to a reversal, in opposition to them.” and US v Throckmorton [98
U.S. 61(1878) holding “fraud vitiates everything”. This Court should decide if Judge
Hurd lacked jurisdiction citing Basso v. Utah Power & Light Co., 495 F 2d 906, 910
(10th Cir. 1994) holding “Jurisdiction can be challenged at any time.” and
“Jurisdiction, once challenged, cannot be assumed and must be decided,”
Petitioner believes this is the dominant argument.
II. The Subsequent New York State Supreme Court Decision Issued by
Judge Mary Farley Is Also Null and Voided as It Arose from A Null and
Void District Court Decision/Action
Citing AUcock v. AUcock 437 N.E. 2d 392 (III. App. 3 Dist. 1982) Holding “Res
judicata consequences will not be applied to a void judgment which is one which,
from its inception, is a complete nullity and without legal effect.”
III. The Second Circuit Court of Appeals Decision Conflicts with Previous
U.S. Supreme Court Rulings
The Second Circuit Court of Appeals decided an important federal and
constitutional question of law, which conflicts with previous time limit rulings of the
U.S. Supreme Court, for fraud upon the Court.
Citing: Hazel-Atlas Glass Co. v. Hartford-Empire Co., 322 U.S. 238, 250 (1944)
recognizing that an Officer of the Court, an attorney, committed fraud upon the
court 12 years earlier by authoring a publication, which was concealed and
10

purported to be from a disinterested person, when actually the author was
defendants Hartford’s attorney, constituting fraud upon the patent office and fraud
upon the Circuit Court of Appeals and further asserting that there are no statute of
limitations for fraud upon the Court: Hazel-Atlas Glass Co. u. Hartford-Empire Co.,
322 U.S. 244 (1944).
The Court of Appeals, in dismissing petitioners appeal, excluded considerations for
the doctrine of equitable tolling, for fraud upon the Court, in its dismissal of
petitioner’s appeal, pursuant to 28 USC 2107 and disregarded the US Supreme
Court’s decision in Holmberg u. Armbrecht, 327 U.S. 392, 397, 66 S.Ct. 582, 585, 90
L.Ed. 743 (1946), in which the Supreme Court stated: "This equitable doctrine
[tolling a statute of limitation because of concealment of fraud] is read into every
federal statute of limitations.
IV. The Second Circuit Court of Appeals Decision Conflicts with Other
Circuit Court Decisions
The Second Circuit Court decision conflicts, in a three-way split, with other Circuit
Court decisions addressing fraud upon the Court time limitations, pursuant to
F.R.C.P Rule(60)(d)(3).
Citing US v. Stonehill 660 F. 3d at 415, 443 (9th Cir. 2011) holding: "Rule [60(d) (3)],
which governs relief from a judgment or order, provides no time limit on courts'
power to set aside judgments based on a finding of fraud on the court”.

11

Citing Baltia Air Lines, Inc., v. Transaction Mgmt., Inc., 98 F.3d 640,642 (D.C. Cir.
1996) holding: “However, Rule 60(d)(3) states that the above rules “do not limit a
court's power to set aside a judgment for fraud on the Court, In other words, the
one-year statute of limitations does not apply when there was a fraud on the Court”.
With the Circuits clearly split, the Supreme Court’s decision will clarify the issue of
time limits addressing fraud upon the Court and give uniformity to these serious
issues across the country.
V. The Second Circuit Court Decision Conflicts with State and Federal
Standards of Time Limits
The Second Circuit Court decision dismissing petitioner’s appeal as untimely,
pursuant to 28 USC 2107, conflicts with New York’s current state time limitations
for fraud, pursuant to NY CPLR 213(8), which is six years from the date the cause
of action accrued, or two years from the time the plaintiff or the person under whom
the plaintiff claims discovered the fraud, or could with reasonable diligence have
discovered it and further conflicts with the federal statute of 18 USC 3282(a) which
provides a five year statute of limitations.
VI. There is Substantial State and National Public Interest
The petitioner’s entire action was based on the misuse, theft, embezzlement and
conversion of state and federally taxpayer funded money, not only addressing
overtime income, but much more substantially, addressing retirement income which
is based on lost overtime earnings while working, pursuant to NYS Civ. Serv. Law
12

134 (3). Petitioner lost in excess of $196,000 in lost overtime while employed and
lost $413,000 in lifetime retirement income, based on lost overtime while working,
totalling approximately $609,000.00. Multiply 609,000.00 times a conservative
figure of 5,000 Officers out of 23,000 similarly situated, equals 3.04 billion dollars in
just one state agency alone. There is much public concern, state wide and nation
wide.
VII. There is Substantial Class Action Considerations
This case, being one of a single Pro se litigate, has implications of substantial public
concern, as it should have been a class action suit brought, pursuant to F.R.C.P
Rule 23(a), affecting 250 Correctional Officers at the Riverview Facility and/or state
wide. It could not be brought as a class action because the petitioner could not
retain counsel prior to initially filing suit. Further, he was denied counsel by the
District Court twice, denied counsel once in the Circuit Court and he did not have
the knowledge, law education, experience, nor the resources to address such an
action. All law enforcement agencies and Courts notified, took no actions to address
or resolve the corruption.
VIII. Setting Precedence for Government Workers
This case will undoubtedly set precedence for future government theft. It will quell
future lawsuits that needlessly clog the nation’s Court systems and further, it will
dramatically change and hopefully lessen government corruption/theft, not only for

13

23,000 New York State Corrections Officers, but for 22 million government workers
in New York and across the United States, affecting billions of dollars.
IX. Effects of Fraud Upon the Court in Relation to State, Federal and
Constitutional Law
The Second Circuit Court of Appeals decided questions of federal and constitutional
law that is extremely important nationally, as the infection of fraud upon the Court,
by a judge, is a grave miscarriage of justice US v. Beggerly, 524 U.S. at 47 (1998),
and is aimed at defiling the proper judicial machinery itself, and is justification for
this Court to review and intervein Bulloch u. United States, 763 F.2d 1115, 1121
(10th Cir. 1985).
X. Petitioner Was Denied his Lawful Rights with No Remedies Given to
Him
The petitioner was denied due process and equal protections under the laws and a
deprivation of his rights, privileges, and immunities secured by the Constitution
and laws pursuant to U.S. Const, amend. V, U.S. Const, amend XIV, sec. I and 42
USC 1983.
XI. Power of the Court
This Court has the power to set aside Judge Hurd’s decision, pursuant to its
inherent powers and F.R.C.P Rule 60(d)(3) and citing Universal Oil Products Co. v.
Root Ref. Co., 328 U.S. 575, 580 (1946).

14

XII. Exhausted Efforts
The petitioner has diligently exhausted all avenues known to him to resolve these
issues, with no remedies afforded to him, or the other Officers, and his only avenue
left, is the United States Supreme Court.

CONCLUSION
I Randy Bell, respectfully request that this Court issue a writ of certiorari.

f

Dated:

l

/ !<hZo7J
Randy Bell, Pn

e Petitioner

Randy Bell
5668 Eloise Crescent,
PO Box 584, Osgoode
Ontario, Canada
K0A-2W0
1-613-469-0131

15

